No.20-808

INTHE

hpmut Q!nurt nf tlJe lttitth &tufts
JOHNNY DUANE MILES,

Petitioner,

v.
THE PEOPLE OF CALIFORNIA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI FROM
THE SUPREME COURT OF CALIFORNIA

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Debo P. Adegbile, a member of
the bar of this Court, certify that the accompanying Brief for Former State and Federal
Court Judges as Amici Curiae in Support of Petitioner contains 5,775 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.l(d).
Executed on January 14, 2021.

Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP

7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
debo.adegbile@wilrnerhale.com

